{TOfjtrti strict Court of appeal
dtateofjTUnitia
Opinion filed February 17, 2021.
Not final until disposition of timely filed motion for rehearing.

No. 3D20-1954
Lower Tribunal No. 07-44274A

Joshua Broughton,
Appellant,
vs.

The State of Florida,
Appellee.

An Appeal under Florida Rule of Appellate Procedure 9.141(b)(2) from
the Circuit Court for Miami-Dade County, Jose L. Fernandez, Judge.
Joshua Broughton, in proper person.
Ashley Moody, Attorney General, for appellee.

Before EMAS, C.J., and SCALES and LOBREE, JJ.
PER CURIAM.
Affirmed.

>:

\

ton o
(•

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL CIRCUIT
IN AND FOR MIAMI-DADE COUNTY, FLORIDA
THE STATE OF FLORIDA,
VS.

CASE F07-44274A
CRIMINAL DIVISION 70
JUDGE FERNANDEZ

JOSHUA BROUGHTON,
■ -j

ORDER DENYING DEFENDANT’S PRO SE MOTION FOR POST­
CONVICTION RELIEF AND/OR PETITION FOR WRIT OF HABEAS
CORPUS
THIS CAUSE is before the Court for consideration of the Defendant’s pro
se Motion for Post-Conviction Relief and/or Petition for Writ of Habeas Corpus,
filed on or about May 12,2020. The Court having reviewed the motion, the State’s
response thereto and incorporated Motion for Rule to Show Cause, the court files
and records in this case, and being otherwise.fully advised in the premises therein,
hereby denies the Defendant's motion on the following grounds:
The Defendant was sentenced on July 31, 2009 after guilty verdicts on the
charges of robbery with a firearm (count 1) and dealing in stolen property (count
7). The Defendant was sentenced as a habitual violent offender on both counts.
The Defendant was sentenced to thirty years in state prison followed by five years
of probation, with a ten year minimum mandatory pursuant to 10/20/Life for
possession of a firearm and a fifteen year minimum mandatory pursuant to Florida
Statute 775.084 (Habitual Violent Offender statute) on count one, and a ten year

Joshua Broughton F0744274A OMPCM 05122020
minimum mandatory on count seven pursuant to Florida Statute 775.084 (Habitual
Violent Offender statute). The Defendant’s conviction and sentences were affirmed
on appeal by the Third District Court of Appeal on July 29, 2011. The Defendant
has filed numerous post-conviction motions all of which have been denied and
affirmed on appeal. The Defendant’s current motion entitled a Motion for PostConviction Relief and/or Petition for Writ of Habeas Corpus was filed on or about
May 12, 2020.
The Defendant argues in his motion that he has “newly discovered evidence”
in the form of certified documents he obtained pursuant to a public records request
from the Palm Beach County Clerk’s Office. These documents which relate to
bench warrants issued in the years 2007 and 2008 are clearly not “newly
discovered evidence.” These documents have been available to the Defendant for
almost thirteen years. His argument is that these documents somehow establish that
his arrest in this case was illegal and that would have made his statement to the
police in this case illegal. He is clearly wrong in both his conclusion that this is
“newly discovered evidence,” and his argument that these documents would
somehow establish that his arrest was illegal and/or his statements to police would
have been found to be inadmissible “fruits of the poisonous tree” by the trial court.
These arguments could have, and should have, been made at the time of trial,

2

Joshua Broughton F0744274A OMPCM 05122020
and/or on appeal. The Defendant’s arguments are without merit, and untimely
made.
The Court declines to enter the State’s requested order to show cause. The
Defendant was represented by counsel who reviewed and adopted the Defendant’s
motion. Counsel also filed a reply to the State’s responsive pleading.
The Defendant is hereby notified that he has the right to appeal this order to
the District Court of Appeal of Florida, Third District within thirty (30) days of the
signing and filing of this order.
The Clerk of this Court is hereby ordered to send a copy of this Order to the
Defendant, Joshua Broughton, DC#B01108, Madison C.I., 382 S.W. MCI Way,
Madison, FL. 32340 .
If the Defendant takes an appeal of this order, the Clerk of this Court is
hereby ordered to transport, as part of this order, to the appellate court the
following:
1. Defendant’s Motion for Post-Conviction Relief filed on or about May 12,
2020.
2. The State’s response filed on or about August 25, 2020.
3. This order.
DONE AND ORDERED at Miami, Miami-Dade County, Florida, this 24th
day of November 2020.
b CERTIFY that a copy of this order has been furnished to
ta•

nf OgfcgMflgyg-

OSH L. FERNANI >EZ,
trduit Court Judge

,20 2£

2

letiU

RODBlQI

STATE OF FLORIDA, COUNTY OF MF.W-DADE
I HERESY CERTIFY that
original on fils In Ma offlea

!is tas
K?';‘ uf lb
Dub u 4 20. 3?;0

HARVEY RUVIN, Clark of Circuit Af&jfcuniy Colitis
DeputyClerK____ t/M .

as COU^
etc ax

l

I ‘';

&

X

A
9oo*tTiutt

PcN:

i

{fi) ^UCU09-CC O'V'd Jad uojiov AjeujidjOSjQ in *|nsej |||M jaded sm) jo asn jaqjo Auv

A1NO 3Sfl "IV031 HOd
t

*

IN THE DISTRICT COURT OF
APPEAL
OF FLORIDA
THIRD DISTRICT
MARCH 23, 2021
JOSHUA BROUGHTON,
Appellant(s)/Petitioner(s);
vs.
THE STATE OF FLORIDA,
Appellee(s)/Respondent(s),

CASE NO.: 3D20-1954
L.T. NO.:

07-44274A

BY ORDER OF THE COURT:
In re: Article I, section 16(b)(10)b Time Limitations
Article I, section 16(b)(10)b. of the Florida Constitution provides that
all state-level appeals and collateral attacks on any judgment must be
complete within two years of the date of appeal in non-capital cases and
five years from the date of appeal in capital cases unless a court enters an
order with specific findings as to why the court was unable to comply and
the circumstances causing the delay,

Pursuant to the administrative

procedures and definitions set forth in Supreme Court of Florida
Administrative Order No. AOSC19-76, this case was not completed within
the time frame required by Article I, section 16(b)(10)b. because the time
frame had already expired by the time this case was filed in this Court.

J

k

\
4

ATru'

,r.

UIST

cc:

Office of Attorney General

Joshua Broughton

la

j

>

i

K
Filing # 116238225 E-Filed 11/05/2020 04:27:56 PM

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL CIRCUIT
IN AND FOR MIAMI-DADE COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,

/
Y

/

CASE NO. F07-44274A
Section No. 7
Judge Fernandez

vs.

JOSHUA BROUGHTON,
Defendant.

r

DEFENDANT’S REPLY TO STATE’S RESPONSE TO DEFENDANT’S PRO SE
MOTION FOR POST-CONVICTION RELIEF AND/OR PETITION FOR WRIT OF
HABEAS CORPUS ALLEGING MANIFEST INJUSTICE

COMES NOW Defendant JOSHUA BROUGHTON, by and through undersigned counsel,
and pursuant to Florida Rule of Criminal Procedure 3.850(b)(1), and files this Reply to the State’s
Response to Defendant’s Motion for Postconviction Relief and/or Petition for Writ Of Habeas
Corpus Alleging Manifest Injustice, Based on Newly Discovered Evidence. In furtherance thereof,
Defendant states:
SUMMARY OF THE ISSUE
This Court should grant Mr. Broughton an evidentiary hearing based on the newly
discovered evidence to wit: Mr. Broughton was subject to an illegal arrest on December 17,2007,
where there was no active bench warrant pending in Palm Beach County, and the Miami-Dade
Police Department arrested him based on a non-existent active warrant in violation of his
Constitutional rights, and where Mr. Broughton’s counsel relied on the veracity of statements made
by Plaintiff during Detective Lopez‘s deposition.

ft

../I'm::*
ARGUMENT
I.

THE RECENT DISCOVERY OF THE LACK OF AN ACTIVE BENCH WARRANT1
AGAINST MR. BROUGHTON ON DECEMBER 17, 2007 CONSTITUTES NEWLY
DISCOVERED EVIDENCE AND WITHOUT AN ACTIVE AND VALID WARRANT,
MR. BROUGHTON WAS ARRESTED ILLEGALLY, THEREBY VIOLATING HIS
CONSTITUTIONAL RIGHTS AND CAUSING A MANIFEST INJUSTICE.
Pursuant to Florida Rule of Criminal Procedure 3.850, a noncapital defendant may attack

his judgment and sentence collaterally more than two years after it becomes final based on newly
discovered evidence. See Fla. R. Crim. P. 3850(b); see also Burns v. State, 110 So. 3d 96, 96-97
(Fla. 2d DCA 2013) (citing Bolender v. State, 658 So. 2d 82, 85 (Fla. 1995) (explaining that a
movant who seeks postconviction relief on basis of newly discovered evidence must file his motion

See Motion for Postconviction Relief and/or Petition for Writ of Habeas Corpus Alleging
Manifest Injustice, dated May 7, 2020, pages 8 and 9, attached hereto as Exhibit A.
... Upon review of the CERTIF IED documents that the clerk mailed the
Defendant the following new evidence was discovered:
(1) The Defendant did NOT have ACTIVE BENCH WARRANT
IN PALM BEACH COUNTY on DECEMBER 17,2007, when
the MIAMI-DADE POLICE DEPRTMENT ARRESTED
HIM.
(2) The Fugitive Warrant / Arrest Affidavit lists two Palm Beach
County Warrants: 07-012902 and 07-17274. (citing Exhibit I).
(3) Warrant 07-17274 had already been executed and the
Defendant had been arrested, went before the court, and was
released on bond on or about December 4, 2007.
(4) Warrant 07-012902 was not issued UNTIL JANUARY 15,
2008. This warrant was only issued based on the fact that the
Defendant failed to appear at his January 14, 2008. (citing
Exhibit J).
Id., at 8.
2

n

X

within two years from the date the evidence could have been discovered with the exercise of due
diligence).
To prevail on a claim of newly discovered evidence, the defendant must show: (1) he nor
his counsel knew about the evidence or that his counsel could not have uncovered the evidence
through due diligence at the time of trial, and (2) that the evidence is of such a nature that it would
probably produce an acquittal on retrial. See Jones v. State, 591 So. 2d 911, 915-16 (Fla. 1992),
see also Wyatt v. State, 71 So. 3d 86, 99 (Fla. 2001). These requirements are known as due
diligence and probability prongs, respectively. Davis v. State, 26 So. 3d 519, 526 (Fla. 2009).
Where a newly discovered evidence claim is properly pleaded, an evidentiary hearing is
required to evaluate the credibility and to determine “whether the statements are true and meet the
due diligence and probability prongs ... unless the affidavit is inherently incredible or obviously
immaterial to the verdict and sentence.” Nordelo v. State, 93 So.3d 178, 185 (Fla. 2012) (quoting
Davis v. State, 26 So. 3d at 526 (Fla. 2009) and citing McLin v. State, 827 So. 3d 948, 955 (Fla.
2002) (requiring an evidentiary hearing to test the credibility of the codefendant’s statements that
served as the basis for a newly discovered evidence claim)).
A postconviction court’s decision to grant or deny an evidentiary hearing is subject to
written materials provided as the basis for such relief. See Nordelo v. State, 93 So. 3d at 184 (Fla.
2012). Accordingly, the trial court’s ruling is “tantamount to a pure question of law.” Id.
However, in undertaking this review, the factual allegations of the motion must be accepted as true
unless refuted by the record. Simpson v. State, 100 So. 3d 1258, 1259 (Fla. 4th DCA) (citing
Nordelo, 93 So. 3d at 184).
Also, if a motion for postconviction relief is summarily denied for legal insufficiency and
has never been addressed on its merits, the court cannot summarily deny a subsequent motion for

3

(7

\

being successive without an evidentiary hearing on the merits of the motion. Roth v. State, 479 So.
2d 848 (Fla. 3rd DCA 1985).
Alternatively, “Article I, Section 13 of the Florida Constitution mandates the availability
of the writ of habeas corpus.” 2 Fla. Practice, Appellate Practice § 9.6 (2019); see Art. I, § 13, Fla.
Const. By way of the writ, “an appellate court has the authority to correct a ‘manifest injustice.’”
Dickerson v. State, 204 So. 3d 544, 545 (Fla. 5th DCA 2016) (citation omitted). Courts have
“inherent authority to grant a writ of habeas corpus to avoid incongruous and manifestly unfair
results.” Johnson v. State, 226 So.3d 908 (Fla. 4th DCA 2017) (quoting Stephens v. State, 974
So.2d 455,457 (Fla. 2d DCA 2008)). Relief may be granted even on a successive petition or claim
where failing to do so would result in manifest injustice. Id., (citing Figueroa v. State, 84 So.3d
1158, 1162 (Fla. 2d DCA 2012); Stephens, 974 So.2d at 457).
A. When an Individual is Unreasonably Seized Based on a Void or Nonexistent Warrant,
any Evidence Obtained as a Result of the Seizure Must be Suppressed, Even If the
Arresting Officers Act in Good Faith Because the Mistake Does Not Take Away the
Illegality of the Arrest
A void or a nonexistent warrant may not be the basis for a legal arrest and search. See State
v. Gifford, 558 So. 2d 444, 445 (Fla. 4th DCA 1990) (citing Martin v. State 424 So.2d 994, 995
(Fla. 2d DCA 1983); Pesci v. State, 420 So.2d 380, 382 (Fla. 3d DCA 1983)).
Moreover, even if the arresting officers do not discover the warrant’s invalidity until after
the arrest, it does not transform it into a lawful one. State v. Gifford, 558 So. 2d at 445 (Fla. 4th
DCA 1990). Nor does the “good faith exception” to the exclusionary rule apply and validate the
arrest. Id. (citing United States v. Leon, 468 U.S. 897, 104 S.Ct. 3405, 82 L.Ed.2d 677 (1984)).

4

In the instant case, the Miami-Dade. Police Department lacked probable cause to arrest Mr.
Broughton.2 They picked up Mr. Broughton based on a pretense, i.e. a warrant that did not exist.
Compare, e.g. State v. Gifford, 558 So. 2d 444, 445 (Fla. 4th DCA 1990) (where the detective
testified that, before interviewing appellee, he had probable cause because (a) he had interviewed
the victims and witnesses; (b) while with the victims and sexual assault counselors at the medical
center, he picked up bits and pieces of information from the road patrol commander; and (c) the
vehicle described as an instrumentality of the offense by both victims was found at appellee's
residence). Here there was at the most, mere suspicion lacking articulable facts or a bare
conclusion. State v. Gifford, 558 So. 2d at 445 (citing Illinois v. Gates, 462 U.S. 213, 103 S.Ct.
2317, 76 L.Ed.2d 527, reh'g denied, 463 U.S. 1237,104 S.Ct. 33, 77 L.Ed.2d 1453 (1983)).
“When an individual is unreasonably seized, any evidence obtained as a result of the
seizure must be suppressed.” See Bowen v. State, 685 So. 2d 942, 944 (Fla. 5th DCA 1996).
Moreover, “oral statements made after an unlawful search or arrest can be suppressed in the same
manner as tangible evidence obtained during an unlawful search or arrest where those statements
are properly considered fruits of the unlawful search.” Hanania v. State, 264 So.3d 317, 324 (Fla.
2d DCA 2019) (citing Wong Sun v. United States, 371 U.S. 471, 485-86, 83 S.Ct. 407, 9 L.Ed.2d
441 (1963) and Talley v. State, 581 So.2d 635, 636 (Fla. 2d DCA 1991)). Determining whether
such statements are admissible requires consideration of three factors: “The temporal proximity of
the arrest and the confession, the presence of intervening circumstances, and, particularly, the
purpose and flasrancv of the official misconduct....” Brown v. Illinois, 422 U.S. 590, 603-04, 95
S.Ct. 2254, 45 L.Ed.2d 416 (1975) (citation omitted) (footnotes omitted); see also State v.

2 See Motion for Postconviction Relief and/or Petition for Writ of Habeas Corpus Alleging
Manifest Injustice, dated May 7,2020, pages 8 and 9, supra.
5

Frierson, 926 So.2d 1139, 1143 (Fla. 2006). The burden of proving that the statements are
admissible rests with the State. Brown, 422 U.S. at 604, 95 S.Ct. 2254.
Cases where the three factors were considered and statements were suppressed include
Brown v. Illinois, 422 U.S. at 604-05, 95 S.Ct. 2254 (holding that a statement made within two
hours of arrest was inadmissible when there were no intervening circumstances); State v. Rogers,
427 So.2d 286, 288 (Fla. 1st DCA 1983) (holding that statements made the day after the arrest
were inadmissible when they were made during the same period of custody and there were no
intervening circumstances), and Reza v. State, where the Third District Court of Appeal found that
the trial court erred by denying the motion to suppress Reza's initial confession where there was
no probable cause to detain or arrest Reza, there was a minimal passage of time between the illegal
arrest and confession, and there were no intervening circumstances sufficient to disconnect the
illegality of the detention from Reza’s inculpatory statements during the initial interrogation. See
Reza v. State, 163 So.3d 572 (Fla. 3d DCA 2015).
Additionally, even if the arresting officers acted in good faith, and this was a mistake, it
does not take away the illegality of the arrest. Indeed, an otherwise illegal arrest is not insulated
from challenge by the fact that the arresting officer relies on erroneous information dispatched by
a fellow officer or employee. State v. Gifford, 558 So. 2d at 449 (Fla. 4th DCA 1990) (Esquiroz,
J., dissenting) (citing Albo v. State, 477 So.2d 1071, (Fla. 3d DCA 1985); Dean v. State, 466 So.2d
1216 (Fla. 4th DCA 1985)).
Florida courts have long held that the knowledge of one officer may be imputed to other
officers under the fellow officer rule, and the same is true for their mistakes. See State v. J.R.D.,
No. 2D18-2034, 2019 WL 6974141 (Fla. 2d DCA Dec. 20, 2019) (holding that good faith
exception to exclusionary rule did not apply to suppression of contraband discovered pursuant to

6

illegal arrest resulting from warrant mistake) (citing Walker v. State, 606 So. 2d 1220, 1221 (Fla.
2d DCA 1992) (“Based on the ‘collective knowledge’ or ‘fellow officer’ rule, an otherwise illegal
arrest cannot be insulated from challenge by the fact that the arresting officer relied on erroneous
radio information from a fellow officer or employee.”); Reza v. State, 163 So. 3d 572,576 n.4 (Fla.
3d DCA 2015) (“Thus, ‘the rule works both ways: to validate an arrest when the responsible
officers have probable cause and to vitiate it when, as here, none objectively exists.

(quoting

Albo, 477 So. 2d at 1073)). “[JJust as the police may permissibly act upon their collective
knowledge, so they are restrained by their collective ignorance.” Albo, 477 So. 2d at 1074. Hence,
even if the arresting officers relied in good faith on information from the dispatch officer, it does
not insulate this arrest from the application of the exclusionary rule.
“The exclusionary rule operates as a judicially created remedy designed to safeguard
against future violations of Fourth Amendment rights through the rule's general deterrent effect.”
Arizona v. Evans, 514 U.S. 1, 10, 115 S.Ct. 1185, 131 L.Ed.2d 34 (1995). Under this rule, the
police conduct resulting in the illegal seizure need not be nefarious or intentional for the remedy
of suppression to apply; suppression is also appropriate to “deter deliberate, reckless, or grossly
negligent conduct, or in some circumstances recurring or systemic negligence.” Herring v. United
States, 555 U.S. 135, 144, 129 S.Ct. 695, 172 L.Ed.2d 496 (2009). Accordingly, even if Mr.
Broughton’s arrest was a mistake, under the exclusionary rule, any statements that he made while
in custody should have been suppressed under the Fourth and Fifth Amendments to the United
States Constitution.

7

-v -

B. Mr. Broughton Has Satisfied the Due Diligence Prong Because He -Relied on the
State’s Veracity During Detective Lopez’s Deposition and Thus, He Did Not Have
Any Other Way of Learning This Information Until Recently
To prevail on a claim of newly discovered evidence, the defendant must show: (1) he nor
his counsel knew about the evidence or that his counsel could not have uncovered the evidence
through due diligence at the time of trial, and (2) that the evidence is of such a nature that it would
probably produce an acquittal on retrial. See Jones v. State, 591 So. 2d 911, 915-16 (Fla. 1992),
see also Wyatt v. State, 71 So. 3d 86, 99 (Fla. 2001). These requirements are known as due
diligence and probability prongs, respectively. Davis v. State, 26 So. 3d 519, 526 (Fla. 2009).
In Waterhouse v. State, both trial and postconviction counsel relied on a police report that
stated a witness did not remember when the defendant or the victim left a lounge on the night of
the murder. Rivera v. State, 187 So.3d 822 (Fla. 2015) (citing Waterhouse v. State, 82 So.3d 84, at
102 (Fla.2012)).
In Waterhouse, counsel did not contact the witness because of this report, but the witness
later stated that the report did not accurately reflect the information he provided to the police. Id.,
(citing Waterhouse v. State, 82 So.3d at 90). The State asserted that counsel was not diligent
because the reference to the witness in the police report provided notice that the individual was a
potential witness. Id. The Florida Supreme Court held that counsel is permitted to rely on the
veracity of a police report, and due diligence is met if (1) a witness swears in an affidavit that he
or she spoke to police about the crime, but the report ultimately contained inaccurate or false
information, and (2) counsel swears that he or she relied on the veracity of the report and did not
contact the witness because the report indicated the witness could not provide any pertinent
information. Id., (citing Waterhouse v. State, 82 So.3d at 104). The Court explained that
[t]o place the onus of verifying every aspect of an unambiguous
police report on defense or collateral counsel would not only create
8

a substantial amount of work in a capital ease, buLalso could be
viewed as downplaying the seriousness of allegedly false police
reports.
Id At 103.
Similarly, here Mr. Broughton’s counsel relied on the veracity of Prosecutor Nina Tarafa’s
statement during Detective Lopez’s deposition that Mr. Broughton was in jail for Surveyor
Equipment Robbery.3 This assertion by Tarafa misled counsel and gave counsel no reason to doubt
the accuracy of the false statement.
In light of these facts, Mr. Broughton has established the due diligence prong of his newly
discovered evidence claim where he did not have any other way of knowing or learning about the
lack of an active warrant when he was arrested based on the veracity of the State Prosecutor’s
assertions during Detective Lopez’s deposition.
C. Mr. Broughton Has Satisfied the Probability Prong Because Mr. Broughton’s Oral
Statement Must Be Excluded as Fruit of the Poisonous Tree and There is No Other
Likely Evidence to Convict Him
The probability prong is sufficiently pleaded when the defendant provides facts showing
how the new evidence “weakens the case against [him] so as to give rise to a reasonable doubt as
to his culpability.” Davis, 26 So. 3d at 526 (quoting Jones v. State, 709 So. 2d 512, 526 (Fla.
1998)). In determining whether the evidence compels a new trial, the trial court must “consider all
newly discovered evidence which would be admissible.” Jones, 591 So. 2d at 916 (Fla. 1991).
The probability prong is strengthened when there is no other likely evidence for which to
convict the defendant. See, e.g., Wyatt v. State, 71 So. 3d 86,101 (Fla. 2011) (concluding that the
newly discovered evidence relating to a letter regarding an agent’s unreliable testimony was not
of such a nature that it would probably produce an acquittal on retrial because (1) the state did not

3 See Motion for Postconviction Relief and/or Petition for Writ of Habeas Corpus Alleging
Manifest Injustice, dated May 7,2020, page 9, supra.
9

base its case on that letter, (2) other witnesses^ linked the defendant to the murder, (3) DNA
evidence matched the defendant to one of the victims, (4) the defendant admitted to stealing a car
that was distinctively similar to the one used in the crime, (5) the defendant made inculpatory
statements, and (6) all victims were shot by the same weapon). For example, an affidavit that
contains information negating the evidence that implicated the defendant in a murder may satisfy
the probability prong.
“When an individual is unreasonably seized, any evidence obtained as a result of the
seizure must be suppressed.” See Bowen v. State, 685 So. 2d 942, 944 (Fla. 5th DCA 1996).
Additionally, “oral statements made after an unlawful search or arrest can be suppressed in the
same manner as tangible evidence obtained during an unlawful search or arrest where those
statements are properly considered fruits of the unlawful search.” Hanania v. State, 264 So.3d 317,
324 (Fla. 2d DCA 2019) (citing Wong Sun v. United States, 371 U.S. 471, 485-86, 83 S.Ct. 407,
9 L.Ed.2d 441 (1963). An officers' good faith reliance on the validity of a warrant cannot save an
improper search, because the good-faith exception articulated in United States v. Leon, 468 U.S.
897, 104 S.Ct. 3405, 82 L.Ed.2d 677 (1984), relates to judicial error in issuing a warrant
unsupported by probable cause, not to police misconduct in making an unlawful arrest based on a
void warrant. See State v. White, 660 So.2d 664, 666-67 (Fla. 1995).
In White, the arrest was premised upon the assumption that an outstanding active warrant
had been returned against the defendant, when in fact the warrant had been served four days earlier
and was no longer valid at the time White was arrested. Mat 665-66. The supreme court approved
the trial court's ruling that a void warrant cannot support the arrest and an incidental search, and
approved the suppression of contraband found in the search incident to his arrest.

10

In the same way, here: any reliance on the void warrant was insufficient to justify Mr.
Broughton’s arrest. Consequently, any oral statements made by Mr. Broughton after his unlawful
arrest should also be suppressed in the same manner as tangible evidence obtained during an
unlawful search or arrest where those statements are properly considered fruits of the unlawful
search.” Hanania v. State, supra (citing Wong Sun v. United States, 371 U.S. 471,485-86,83 S.Ct.
407, 9 L.Ed.2d 441 (1963).
Accordingly, Mr. Broughton has sufficiently pleaded the probability prong where any oral
statements made by Mr. Boughton while illegally detained must be suppressed and there is no
other likely evidence for which to convict him. Therefore, at the minimum, Mr. Broughton should
be granted an evidentiary hearing to determine whether the newly discovered evidence is “of such
a nature that it would probably produce an acquittal on retrial.” See Simpson v. State, 100 So. 3d
1258, 1259 (Fla. 4th DCA 2012) (citing Nordelo, 93 So. 3d at 185-86).
CONCLUSION
As all allegations in Defendant’s Motion must be accepted as true, except to the extent that
the record conclusively rebuts them, Mr. Broughton asserts he has established an entirely sound
factual and legal basis for an evidentiary hearing. Edwards v. State, 652 So.2d 1276, 1276-1277
(Fla. 1995); Arbelaez v. State, 775 So.2d 909 (Fla. 2002). Mr. Broughton therefore respectfully
requests this Court hold an evidentiary hearing on this matter or, in the alternative, grant his motion
to vacate his conviction and sentence in the above-captioned cause and order a new trial and/or
sentencing hearing.
WHEREFORE, Mr. Broughton respectfully requests this Honorable Court grant the
following relief, and any other relief this Court deems just and proper:

11

•*

,

1. A new trial based on the newly discovered evidence presented in the form of lack of an
active warrant on December 17, 2007.
2. An evidentiary hearing based on Mr. Broughton’s Declaration;
3. That the judgments entered and sentences imposed be vacated; and
4. Such other and further relief as this Court deems just and proper.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing was filed with the Clerk
of Court, and all parties of record, via CM/ECF this 5th day of November 2020.

s/ Ana M. Davide
Ana M. Davide, Esq.

12

